AU00-006 September 2000
Home < Reports < Audit Reports   Legal Services Corporation Office of Inspector General
Results of Recipient Audit Reports for the Year Ended December 31, 1999
Final Report No. AU00-006
September 2000
Other formats: PDF 24K | Word97 58K
September 29, 2000
TO THE BOARD OF DIRECTORS
OF
THE LEGAL SERVICES CORPORATION
The Corporation's fiscal year 1996 appropriations statute (Pub. L. No. 104-134) directed
that annual financial statement audits be used as the primary means for checking
grantee compliance with applicable laws and regulations.  The fiscal year 1999
appropriations act (Pub. L. No. 105-277) also included this provision.  This report
presents the results of the 1999 audits of LSC grantees.
Independent Public Accountants (IPAs) reported 112 findings in the 263 audit reports
received.  After reviewing these findings the OIG concluded that 56 were significant and
referred them to LSC management for follow up.  None of the referred findings were for
grantee noncompliance with prohibitions and restrictions on the provision of legal
services.
Internal control weaknesses such as a failure to follow procedures or delays in
processing financial transactions accounted for a significant portion of the referred
findings.  Missing documents and/or unsigned documents accounted for the second
highest number of findings.  Other findings involved timekeeping and case management
reporting.
This report will be presented to the Corporation's authorization and appropriations
committees of Congress immediately and will be made available to the public not later
than October 16, 2000.
E. R. Quatrevaux
Inspector General
TABLE OF CONTENTS
Results
Summary of Significant Findings
Findings Not Referred to Management
Denial of Access
Audit Requirements
Scope and Methodology
Audit Information Management System
Initial Processing
Focused Review
Resolution
Corrective Action
Quality Control Process
RESULTS
The Office of Inspector General (OIG) received 263 calendar year 1999 financial
statement audit reports from LSC grantees.  These reports contained 112 findings.  The
56 findings listed below were significant and were referred to LSC management for
follow up to ensure that the grantees corrected the reported problems.  The remaining
findings were not significant and were not referred to management (see page 3).  One
grantee denied its IPA access to records needed to do the audit.  The issue was
resolved and the IPA completed the audit and provided an unqualified opinion on the
grantee's financial statements and compliance with LSC laws and regulations
Although the categories are not mutually exclusive and some findings could be listed in
more than one category, the following summary of significant findings shows each
finding in only one category for ease of reference.
Summary of Significant Findings Referred to Management
Grantee Audit Reports Calendar Year 1999
CategoryNumber of Findings
Internal Control Problems
Processing financial data
Weaknesses over cash receipts/disbursements
Reconciliation of client trust accounts
Procedures lacking or not followed
Segregation of duties
Property inventory not taken
Uninsured bank deposits
20
Missing documents and/or unsigned documents (i.e., client state-
ment of facts, citizenship attestation, retainer agreements)16
Reporting problems7
Timekeeping procedures and systems deficiencies5
Private Attorney Involvement requirements not met5
LSC fund balance exceeded amount allowed by LSC regulations3
Total56
Noncompliance with Restrictions
The IPAs did not report any findings of noncompliance with either statutory client
eligibility requirements (aside from documentation problems), or with the prohibitions and
restrictions on the legal services that may be provided.
Internal Control Problems
Deficiencies in the internal control system accounted for the largest number of significant
findings (20).  These findings primarily involved the lack of written procedures, the failure
to follow procedures when they were available, weaknesses in processing financial data,
weaknesses in handling cash receipts, cash balances exceeding the amount insured by
the Federal Deposit Insurance Corporation, insufficient staff to establish controls over
client trust fund accounts, and property inventory not taken consistently.  These findings
were significant and were referred to management because an effective system of
internal controls helps ensure compliance with LSC laws and regulations.
Missing Documents and/or Unsigned Documents
The second largest number of significant findings (16) was related to missing and/or
unsigned documents such as client statements of facts, citizenship attestations, and
retainer agreements.  These findings were referred to LSC management because
missing or unsigned documents can conceal noncompliance with statutory requirements
or other reportable conditions.
Reporting Problems
Seven findings disclosed that grantee reports to LSC were inaccurate, late, or not
submitted.  Four of these findings related to errors in grantees' reporting of case
statistical data.  These findings were significant because accurate reporting is an
important element of effective program management, and because LSC established
case statistical data as a performance measure for reporting under the Government
Performance and Results Act.
Timekeeping Procedural and Systems Deficiencies
Five findings reported deficiencies in timekeeping systems.  These findings were
significant because accurate and reliable timekeeping is essential to ensuring that
grantee staff did not violate the prohibitions or restrictions imposed by Congress.
Private Attorney Involvement Requirements Not Met
Five findings related to the failure to meet established Private Attorney Involvement
Requirements.
LSC Fund Balance Exceeded Amount Allowed by LSC Regulations
Three findings reported that grantees had LSC fund balances that were significantly in
excess of the amount allowed by LSC regulations.  The grantees had not received
waivers from LSC to allow the funds to be retained.  Excess fund balance findings are
significant because they indicate that grantees may not be making the proper use of
LSC funds.
Repeat Findings
Six of the above findings are repeat findings from the fiscal year 1998 audit reports.  In
these cases, the grantees did not correct, or only partially corrected the problems
reported last year.  The grantees did not provide reasonable explanations for their failure
to correct previously reported problems.
Findings Not Referred To Management
The IPAs reported 56 additional findings in audit reports for 50 grantees.  After reviewing
these reports, the OIG concluded that the findings did not warrant mandatory follow-up
by LSC management.  Generally, the problems had been corrected or were considered
not significant and were communicated to LSC management via the Audit Information
Management System (AIMS).  These findings were not significant for following reasons.
(19)Minor internal control problem.
(15)Few insignificant errors in sample and problems not systemic.
(12)Minor omissions or discrepancies, i.e., document obtained and signed but undated.
( 8)Corrective action taken subsequent to audit
( 2)Qualified audit opinion based on problems unrelated to LSC
Denial of Access
One grantee refused its auditor access to records for the 1999 audit.  As a result, the
IPA disclaimed an opinion on the grantees' compliance with LSC laws and regulations.
The OIG rejected the compliance audit report and asked LSC management to suspend
the recipient's funding until an acceptable audit was performed.  Management accepted
the recommendation and suspended funding.  The recipient filed in the State Supreme
Court a Verified Petition for Clarification of Attorney Responsibilities Under the Rules of
Professional Conduct.  The State Supreme Court subsequently issued an order
declining jurisdiction over the matter and dismissing the petition.  The recipient then
provided its IPA access to the required records.  The IPA performed the compliance
audit and issued an unqualified opinion.  The OIG accepted the report and
recommended that management lift the funding suspension.  Management agreed and
funding was restored.
AUDIT REQUIREMENTS
Recipients of grants from the LSC are responsible for preparing annual financial
statements and arranging for their audits by IPAs.  These audits are to be conducted in
accordance with Government Auditing Standards promulgated by the Comptroller
General of the United States, Office of Management and Budget (OMB) Circular A-133,
"Audits of Institutions of Higher Education and Other Non-Profit Institutions" and the
"LSC Audit Guide for Recipients and Auditors."  Audit reports must be submitted to the
LSC Office of Inspector General (OIG) within 120 days of the recipients' fiscal year end.
The reports are to include an opinion on the financial statements, a report on the internal
control structure, a report on compliance with laws and regulations, and a management
letter, when appropriate.
IPAs are also required to submit a Summary Report Form (SRF) on Noncompliance with
Laws and Regulations, Questioned Costs, and Reportable Conditions.  IPAs must
submit SRFs via the Internet by completing a form residing on the OIG website.  The
SRF must be submitted regardless of whether or not there are any audit findings.  The
IPA reports on the SRF any instances of noncompliance, material reportable conditions
and additional findings.  For each reported findings, the IPA provides a description of the
finding, Audit Guide identification code for the finding, the sample size of case files
reviewed, the number of times a deficiency occurred, the recipient response to the
finding, and the amount of any questioned costs.
Under certain circumstances, the recipient must submit to the OIG a special report,
called a 5-day letter, which is based on a report the IPA prepares.  IPAs must
immediately report to the recipient all findings of noncompliance with the
Congressionally imposed prohibitions and restrictions.  The IPA's report describes the
noncompliance and the circumstances under which it occurred.  Within five business
days after issuance of the IPA's report, the recipient must submit to the OIG, a report
entitled "Recipient 5-day Special Report" to the OIG on Noncompliance with Laws and
Regulations."  The recipient also sends a copy of this report to the IPA.
Recipients must submit corrective action plans to LSC for all material findings and
recommendations and questioned costs the IPA identified, within 30 days of the audit
report's submission.  These plans must describe the corrective action taken or planned
in response to the audit findings and recommendations.  If the recipient disagrees with
the findings and recommendations, the reasons for the disagreement must be fully
explained.  The recipient may incorporate the corrective action plans into the audit
reports as part of its response to the auditor's findings and recommendations, but this
option does not extend the due date for audit reports.
SCOPE AND METHODOLOGY
SCOPE
This report covers the grantee financial, internal control, and compliance audit reports
prepared by IPAs for the year ended December 31, 1999.
METHODOLOGY
Audit Information Management System
The OIG developed the Audit Information Management System (AIMS) to support the
audit review team in performing desk reviews of audit reports.  The system tracks and
collects information on the SRF, audit reports, 5-day letters, audit costs, and
management letters.  It also tracks the resolution of audit findings and recommendations
and documents and grantee corrective actions.
Initial Processing
IPAs electronically submit the SRF.  The OIG staff verifies that each form includes all
required information before it is accepted into AIMS.  The grantees submit the audit
reports through the mail.  The OIG staff does a brief review to ensure that reports on the
financial statement, internal controls, and compliance LSC with laws and regulations are
provided.
Focused Review
Following initial processing, the OIG conducts a focused review of the critical audit
findings and recommendations that the IPA reported on the SRF.  The OIG auditors can
add findings that were not reported on the SRF and amend IPA reported findings based
on the focused review.  An auditor reviews the findings and recommendations and takes
action to "invoke A-50" or to "close the finding to inventory." The LSC grantee audit follow
up process incorporates the concepts of OMB Circular A-50 "Audit Follow Up," and
hence the use in AIMS of the term "invoke A-50."  The auditor then writes a justification
for the recommended action, which is approved or revised by OIG audit management.
If A-50 is invoked, OIG audit management refers the audit findings and
recommendations to LSC management for follow up action.  The referral is made
through AIMS by approving the finding for follow up and establishing a project code to
track the follow up process through resolution and corrective action.
If the finding is closed to inventory, the findings and associated recommendations are
retained in the AIMS system in an inventory of noncritical findings.  These findings are
provided to LSC management by the OIG for information and no follow up action is
required.  The IPAs follow up on these findings in the next fiscal year audit.  If the IPAs
report that these findings are uncorrected the second year, A-50 is invoked at that time.
The decision of whether to invoke A-50 or to close to inventory rests on the finding's
significance.  A significant finding requires management's attention based on
quantitative and/or qualitative conditions contained in the finding.  The following types of
findings and recommendations by grantee IPAs are referred to LSC management for
follow up action:  noncompliance with laws and regulations which have a material impact
on the LSC program, questioned or unsupported costs, material weaknesses, reportable
conditions that are indicative of a systemic problem, and uncorrected findings from prior
reports.
LSC management is responsible for following up on significant findings referred by the
OIG to ensure that deficiencies and noncompliance are promptly resolved.  Recipients
are required to submit corrective action plans to LSC management no later than 30 days
after submission of the audit report.  If a recipient does not submit a corrective action
plan by the due date, LSC management contacts the grantee and requires immediate
submission of the plan.
Resolution
Resolution is the point at which LSC management agrees with the grantee's proposed
corrective action plan or accepts the grantee's disagreement with a reported finding, and
the OIG concurs in the management decision.  If LSC management and the OIG cannot
agree, resolution is reached when the LSC Audit Follow Up Official, designated by the
LSC President, issues a decision on the matter.
LSC management reviews the grantee's corrective action plan to determine if it is
satisfactory.  If the proposed corrective action is unsatisfactory, LSC management
communicates the deficiencies to the grantee and requires the grantee to provide a
satisfactory plan.
LSC management ensures that proposed corrective actions are consistent with law,
regulations, and LSC policy.  If a grantee disagrees with a reported finding or
recommendation, LSC management ensures that the grantee provides an adequate
written justification containing the legal and factual basis for the disagreement.  Within
30 days of receipt of the referred finding, LSC management notifies the OIG of its
acceptance of the corrective action plan or the grantee's disagreement with the finding
and recommendation.
The OIG notifies LSC management within 15 days of its concurrence or
nonconcurrence.  If the OIG concurs, the finding is considered resolved.  If the OIG does
not concur, the Audit Follow Up Official has 15 days to seek agreement between LSC
management and the OIG.  If no agreement is reached within the 15 days, the Audit
Follow Up Official issues a decision within 7 days, and the finding is considered
resolved.
Corrective Action
After resolution has been obtained, LSC management ensures that corrective actions
have been taken by the grantee within six months of the resolution date.  LSC requires
the grantee to provide documentation that the corrective action has been fully
implemented and requires the grantee to certify that all corrective actions have been
implemented.  LSC management notifies the OIG of all completed corrective actions and
provides the OIG with copies of the grantee certifications.  Upon receipt of the
notification of completion, the OIG closes the respective findings and recommendations.
IPAs will also verify completion of corrective actions during the next fiscal year audit.
Quality Control Process
In 1998, the OIG initiated the Audit Service Review (ASR) program to evaluate the
effectiveness of the compliance audits performed by grantees' IPAs.  ASRs include a
review of the IPAs' working papers to determine if the grantees' compliance with LSC
laws and regulations was adequately tested.  The OIG conducted 30 ASRs on the
grantees' 1999 audits.  One ASR determined that the IPA did not adequately test the
grantee's compliance with LSC laws and regulations.  The OIG required the auditor to
redo the audit and perform adequate testing.  Several other ASRs disclosed that the
auditors did not adequately test one or two regulations.  In these cases the OIG
concluded that the deficiencies were relatively minor and required the auditors to ensure
that adequate testing would be done on future audits.  The continuing ASR process
allows the OIG to monitor the quality of the IPA audit reports and thus increase the
reliability of the reports.
The OIG reviews all audit reports submitted by IPAs that include critical findings and
those that have management letters.  The audit reports prepared by IPAs selected for
ASRs are also reviewed.  The OIG reviewed 129 of the 263 audit reports received for
Calendar Year 1999.  In prior years, a sample of reports lacking critical findings was
reviewed.  These reviews disclosed few critical findings that had not been reported and
were, therefore, not cost effective.  Reports lacking critical findings or a management
letter were not a priority this year and such reports have not been reviewed.  As staff is
available, a small sample of reports with noncritical findings will be reviewed.
URL: http://oig.lsc.gov/reports/00006/au00006.htm